supre

If,.

No.

2i-2lU>

*“9

aug- 9 2021

OrflCEo

In The Supreme Court of the United States
ROGER BROWN
Petitioner
V.
UNKNOWN EMPLOYEES OF CITIZENS
PROPERTY INSURANCE CORPORATION
and
CITIZENS PROPERTY INSURANCE
CORPORATION
Respondents.
ON PETITION FOR WRIT OF CERTIORARI TO
THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

+
PETITION FOR WRIT OF CERTIORARI

+
PETITIONER
Roger Brown, Pro Se [Non-Lawyer]
c/o PO Box 566
Dunedin, Florida 34697-0566
956-408-9167, rbl27.legal@gmail.com
Dated: August 7, 2021
i

QUESTIONS PRESENTED
Both the lower Courts’ decisions contradict cases
within its own circuit, other circuits, and this Court’s
precedent in Thacker v TVA. Please consider these
questions.
A. Does Thacker v TVA apply to a similar “sue and
be sued” body in determining Eleventh Amendment
immunity for a State's “Arm-of-the-State” corporate
entity when conducting commercial activities?
B. Does the commercial versus governmental activity
test in Thacker v TVA over ride or modify the
Eleventh Circuit's four [4] prong test in determining
Eleventh Amendment immunity for a State's "Armof-the-State" corporate entity?
C. Did the Eleventh Circuit err by applying their four
prong test in the abstract and too narrowly?

Secondary Issue Questions: If the Court Pleases, for
judicial economy, please consider these questions
raised in the District and Appeals Court that Brown
faces on his journey to justice with a Florida jury.
D. Are Florida
unconstitutional?
E. Are Florida’s
unconstitutional?

laws

limits

that

impairs

contracts

on

punitive

damages

F. Are lack of pro se fee awards unconstitutional?
n

LIST OF PARTIES
Roger Brown, Pro Se [Non-Lawyer]
c/o PO Box 566, Dunedin, Florida 34697
956-408-9167, rbl27.legal@gmail.com
Unknown Employees of Citizens
Insurance Corporation
Citizens Property Insurance Corporation
Maureen Pearcy [Attorney for Citizens],
Paul R. Pearcy, P.A.,
7700 N. Kendall Drive, Suite 412
Miami, Florida 33156
Office: 305-663-8850, Cell: 305-742-7405
maureen@pearcylawyer.com
service@pearcylawyer.com

Property

The State of Florida nor any agency, officer, or
employee thereof is a party hereto. Thus pursuant to
Supreme Court Rule 29.4.(c) it is noted that 28
U.S.C. §2403(b) may be applicable to the
constitutionality of a Florida statute that may be
drawn into question.
Ashley Moody, Attorney General
oag. civil. eserve@myfloridalegal. com
This e-serve box is to be used in the following
circumstances: To provide notice of a constitutional
challenge to a statute, charter, ordinance or
franchise, pursuant to Section 86.091, Fla. Stat.
(2012); Rule 1.071, Florida Rules of Civil Procedure;
Rule 5.1(a)(2), Federal Rules of Civil Procedure; and
Title 28 U.S.C. § 2403.

in

LIST OF
BELOW1

ALL

PROCEEDINGS

OPINIONS

The April 29, 2021 opinion of the Eleventh Circuit
denying rehearing. [USCA11 Case: 20-11607-BB]
[Pet. App. Pg 2]
The February 4, 2021 opinion of the Eleventh
Circuit,
before
Circuit
Judges
WILSON,
ROSENBAUM, and GRANT, is unpublished.
[USCAll Case: 20-11607-BB] [Pet. App. Pgs 2-8]
The April 3, 2020 decision of the District Court
denying subject matter jurisdiction. The Judges
overseeing this case were Charlene Edwards
Honeywell and Sean P. Flynn. [District Court,
Middle District Of Florida, Tampa Division Case No.
8:19-cv-1951-T-36SPF] [Pet. App. Pgs 8-17]
CORPORATE DISCLOSURE
Petitioner has no corporate disclosures
TABLE OF CONTENTS [iv]
COVER PAGE [i]
QUESTIONS PRESENTED [ii]
LIST OF PARTIES [iii]
LIST OF ALL PROCEEDINGS [OPINIONS
BELOW] [iv]
CORPORATE DISCLOSURE [iv]
TABLE OF CONTENTS [iv]
TABLE OF AUTHORITIES [viii]
CONSTITUTION [viii]
CASES [ix]
STATUTES [x]
iv

v

OTHER AUTHORITIES [x]
GLOSSARY OF ABBREVIATIONS [xi]
I. JURISDICTION [1]
II. STATEMENT OF THE CASE [1]
A. INTRODUCTION [1]
1. Type Of Case [1]
B. PARTIES [1]
2. Petitioner [1]
3. Respondent [2]
C. TIME LINE OF EVENTS IN CASE [2]
4. Brown's Initial Event [January 20,
2011] [2]
5. Brown In State Lawsuit [April of
2014] [2]
6. Settlement Contract [August 8 of
2014] [3]
7. Florida Supreme Court Impairs
Contract Rights [May 14, 2015] [3]
8. CPIC's Egregious Acts Increase [May
29, 2015] [3]
9. Thacker v TVA [April 29, 2019] [4]
10. Brown In US District Court [August
7 of 2019] [4]
11. US District Court Decision [April 3,
2020] [4]
12. Notice of Appeal [April 28, 2020] [4]
13. Circuit Court Appeal [June 24, 2020
& September 14, 2020] [4]
14. Florida Supreme Court Impairs
Contract Rights Again [January 21,
2021] [5]
15. Circuit Court Decision [February 4,
2021] [5]
V

16. Circuit Court Rehearing Petition
[April 29, 2021] [5]
17. And Now A Petition for Writ of
Certiorari [5]
III. MAIN ISSUE [6]
IV. SUMMARY Of ARGUMENTS [6]
V. ARGUMENTS DISCUSSED [7-30]
A. Federal Law controls when determining if any
State entity is deserving of a valid Arm-of-the-State
status under the Eleventh Amendment. [7-9]
B. The US Supreme Court precedent in THACKER
controls this case. [9-14]
C. If Thacker is not dispositive, CPIC still does not
qualify as an Arm-of-the-State under the Eleventh
Circuit's four prong test. [14-22]
1. CPIC's Characteristics [14-15]
2. Court Action [15-16]
3. Florida Attorney General's Legal Opinion
[16-17]
4. State Treasury [17-18]
5. State Control [18-19]
6. CPIC's Sue and Be Sued Clause [19-20]
7. State Dignity [20]
8. Political Subdivisions [20-21]
9. More Analysis [21]
D. CPIC's insurance activities with BROWN were
strictly commercial and BROWN had a right to
assert claims against CPIC in Federal Court. [22]
E. There are Splits among the Circuits and within
the Eleventh Circuit on the issue of Arm-of-the-State
determinations. [22]
F. Florida's Unconstitutional Laws That Unfairly
Benefit CPIC [22-30]
1. Contract Rights [24-27]
vi

(a) Contract Right of Bad Faith Damages
Impaired [26]
(b) Contract Right of Consequential Damages
Impaired [26-27]
2. Jury Trial Punitive Damages Capped [2728]
3. Pro Se Fee Prohibition [28-30]
VI. QUESTIONS ANSWERED [30-33]
A. Do the decisions in Thacker v TVA apply to a
similar "sue and be sued" body in determining
Eleventh Amendment immunity for a State's "Armof-the-State" corporate entity when conducting
commercial activities? YES. [30-31]
B. Does the commercial versus governmental activity
test in Thacker v TVA over ride or modify the
Eleventh Circuit's four [4] prong test in determining
Eleventh Amendment immunity for a State's "Armof-the-State" corporate entity? YES. [31-32]
C. Did the Eleventh Circuit err by applying their four
prong test in the abstract and too narrowly? YES.
[32]
D. Do Florida laws impairs contracts? YES. [32]
E. Is Florida’s limit on punitive damages
unconstitutional? YES. [32]
F. Are lack of pro se fee awards unconstitutional?
YES. [33]
VTI. SUMMARY [33-37]
A. Main Issue In This Case [33]
B. Party of Record [33]
C. CPIC Has No Arm-of-the-State Status
Under Lower Court's Analysis [33-34]
D. CPIC Has No Arm-of-the-State Status
Under THACKER [34-35]
Vll

E. Courthouse Doors Need To Be Opened [3536]
F. Ideal Case For a Supreme Court
Decision [37-38]
VIII. CONCLUSION [37-39]
APPENDIX
Table of Contents [Pet. App. 1]
A. Eleventh Circuit Refusal for Rehearing April 29,
2021 [Pet. App. 1]
B. Eleventh Circuit Order Affirming District Court
CPIC Eleventh Amendment Immunity February 4,
2021 [Pet. App.3-9]
C. District Court Order Granting CPIC Eleventh
Amendment Immunity April 3, 2020 [Pet. App. 9-20]
D. Appellant Brief for Petition for Rehearing March
24, 2021 [Pet. App. 20-43]
E. Appellant Reply Brief to CPIC Appellee Brief
September 14, 2020 [Pet. App. 43-87]
F. Appellant Brief June 24, 2020 [Pet. App. 87-163]
G. Affidavit That All Appendix items are actual and
true copies of the Originals [Pet. App.163-164]
TABLE OF AUTHORITIES
CONSTITUTION
U.S. Constitution, Article I, Section 9 [32]
US Constitution Article I, Section 10 [25,28,32,33]
US Constitution Amendment V [24,28]
U.S. Constitution Amendment VII [27,28,32]
US Constitution Amendment XI [various]
U.S. Constitution Amendment XIII Section 1 [28,33]
U.S. Constitution Amendment XIV [24,28]
Florida Constitution Article I, Section 10 [25,32]
Florida Constitution Article I, Section 21 [25,32]
vm

Florida's Constitution Article I, Section 22 [27,32]
Florida Constitution Article IV, Section 4 [17]
CASES
Citizens Prop. Ins. Corp. v. Manor House, No .
SC19-1394.
So. 3d — (Fla. Jan. 21, 2021).
[5,25,26]
Citizens Prop. Ins. Corp. v. Perdido Sun Condo.
Ass’n, 164 So. 3d 663, 664, 668 (Fla. 2015) [3,25,26]
FDIC v. Meyer, 510 U.S. 471, 475 (1994) [19-20]
FHA v. Burr, 309 U.S. 242, 245 (1940) [10-12]
Henderson by & Through Hartsfield v Alabama
Power Co. (1993, Ala) 627 So 2d 878 [28]
ITSI TV Productions, Inc. v. Agric. Ass'ns, 3 F.3d
1289, 1291 (9th Cir. 1993) [9]
Lake Country Estates, Inc. v. Tahoe Regional
Planning Agency, 440 U.S. 391,401 (1979) [21]
Library of Congress v. Shaw, 478 U.S. 310, 317 n.5
(1986) [20]
Loeffler v. Frank, 486 U.S. 549, 556 (1988) [20]
Lynch v. United States 292 US 571, 579 [24-25]
Manders v Lee, 338 F.3d [7]
Mt. Healthy City Bd. of Educ. v. Doyle, 429 U.S.
274, 280 (1977) [21]
Northern Insurance Co. v. Chatham County, 547
U.S. 189, 193 (2006) [21]
Oberg v. Pa. Higher Educ. Assistance Agency, 745
F.3d 131, 147 (4th Cir. 2014) [9]
Shands Teaching Hosp. & Clinics v. Beech St. Corp.,
208 F.3d 1308, 1311 (11th Cir. 2000) [34]
Thacker v TVA, U.S. Supreme Court, No. 17-1201,
139 S.Ct. 1435 (April 29, 2019) [4,6,9-14,30-32,35,37]
Waller v. Florida, 397 U.S. 387 (1970) [21]
IX

Woods v. Rondout Valley Central School District
Board of Education, 466 F.3d 232, 237 (2d Cir. 2006)
[9]
STATUTES
28 U.S.C. §1331 [1]
28 U.S.C. §1332 [1]
28 U.S.C. §2403(b) [iii]
Fla. Stat. § 627.351(2)(b)(6)(b) [19]
Fla. Stat. § 627.351(6)(a)l [16]
Fla. Stat. § 627.351(6)(s)l [27]
Fla. Stat. § 627.351(6)Sl(t) [20-21]
Fla. Stat. §768.72(1) [27]
Fla. Stat. §768.73 [27]

OTHER AUTHORITIES
[Florida] Advisory Legal Opinion- AGO 200221 [Accessed 2019-07-22]
http://www.myfloridalegal.com/ago.nsf/Opinions/9AD
A2CD70F68DC5385256B740067BC9C [17]
Association of the Bar of the City of New York,
Lectures on Legal Topics 105 (1926). Clinton v.
Jones, 117 S. Ct. 1636, 1650 n.40 (1997). [36]

x

GLOSSARY OF ABBREVIATIONS
7th
Seventh
11th
Eleventh
14th
Fourteenth
Arm-of-the-State Arm of a State
BROWN
Petitioner Roger Brown
Circuit Court
Eleventh Circuit Court of Appeals
CPIC
Respondent Citizens Property
Insurance Corporation
District Court
District Court, Middle District Of
Florida, Tampa Division
Doc
Document number in District
Court
[EA]
Emphasis Added
Fla. Stat.
Florida Statutes
Pet. App.
Petitioner’s Appendix
Page(s)
Pg
THACKER
Thacker v Tennessee Valley
Authority
TVA
Tennessee Valley Authority
US
United States

xi

I. JURISDICTION
Jurisdiction for this case is based upon both
“diversity jurisdiction” and “federal question
jurisdiction”.
Diversity of citizenship, 28 U.S.C. §1332. and the
amount in controversy exceeds $75,000.00 exclusive
of interest and costs exists in this case. Diversity
jurisdiction provides a neutral forum for parties from
different States.
Federal question jurisdiction exists herein and
affords BROWN a federal forum in which to
vindicate federal rights. And this court has subject
matter jurisdiction over federal question matter
pursuant to 28 U.S.C. §1331. Federal Law
determines if and how an Arm-of-the-State entity is
entitled to immunity under the Eleventh
Amendment.

II. STATEMENT OF THE CASE
A. INTRODUCTION
1. This is a ten year old “David versus Goliath”
ongoing case which now presents constitutional
issues including an Eleventh Amendment
jurisdictional issue concerning a State’s Arms-of-theState entity that conducts commercial activities.
B. PARTIES
2. Petitioner: Roger Brown [BROWN], a non-lawyer
acting in Pro Se, is now a seventy-three [73] year old
senior citizen. BROWN was residing in Texas at the
1

time he filed an action in the Federal District Court
in Tampa, Florida. BROWN claims CPIC is not an
“Arm-of-the-State” for purposes of the Eleventh
Amendment. BROWN has had no help in all of his
pleadings and briefs.
3. Respondent: Citizens Property Insurance
Corporation [CPIC] was created as a corporate entity
by the Florida Legislature in 2002 with a “sue and be
sued” clause and claims “Arm-of-the-State” status
under the Eleventh Amendment. CPIC operates
independently and financially separate as a mutual
property insurance company by selling and servicing
property insurance to citizens of Florida and citizens
of other states who own property in Florida. CPIC is
a massive multiple billion dollar self-supporting
property insurance company in the market place
with around 1250 employees and hundreds of
thousands of policyholders in Florida and other
states.
C. TIME LINE OF EVENTS IN CASE
4. BROWN’s Initial Event: BROWN filed a timely
and valid property insurance claim on a covered
event under a fully paid up insurance contract with
CPIC on January 20. 2011. CPIC inspected the
property. Thereafter BROWN’s claim was wrongfully
and intentionally denied by CPIC on July 28 of 2011.
5. BROWN In State Lawsuit: BROWN, a Texas
resident, after years of trying, finally obtained
Florida legal counsel, on a contingency basis, to file a
Florida State lawsuit against CPIC. After an
2

inspection by a contractor for the legal team, the
validity of BROWN’s claim was proven. The lawsuit
was then filed in April of 2014.
6. Settlement Contract: The lawsuit later produced a
settlement contract on August 8 of 2014. Said
contract provided another inspection, jointly
approved by both parties, to be made by a third party
contractor who would determine if the claim was
valid. If the claim was valid the costs would be
determined by approved contractors on the amounts
CPIC would have to pay. The claim was found to be
valid.
7. Florida Supreme Court Impairs Contract Rights:
BROWN's federal and state contract rights with
CPIC were unconstitutionally and retroactively
impaired by the Florida Supreme Court on May 14.
2015 in the case CPIC v Perdido Sun. CPIC had been
granted unconstitutionally the right to use “bad
faith” at will and without accountability or legal
consequences.
8. CPIC's Egregious Acts Increase: On May 29. 2015.
just fifteen [15] days after the CPIC v Perdido Sun
ruling, CPIC begins more egregious activity against
BROWN. BROWN was now barred from suing CPIC
in state court for ongoing grievous "bad faith" acts.
Afterwards BROWN tried for almost four [4] years to
get CPIC to properly honor the settlement contract.
CPIC, backed by the newly approved “bad faith”
exemption, acted egregious and intentionally
3

continued to refuse to properly pay BROWN on his
many verbal and written requests to do so.
9. Thacker v TVA: Justice Kagan's unanimous
opinion, on April 29. 2019. reversed the Eleventh
Circuit and stated that TVA, an Arm-of-the-State
entity, is subject to suits challenging any of its
commercial activities. The decision placed TVA in the
same position as a private corporation.
10. BROWN In US District Court: For several years
BROWN had tried to retain Counsel without success.
BROWN, a non-lawyer acting in Pro Se and still a
Texas resident, filed a Federal diversity and federal
question lawsuit on August 7 of 2019 against CPIC,
with the US District Court. BROWN stated that
CPIC does not benefit from Eleventh Amendment
Immunity and that Brown’s Amended Complaint
sufficiently alleged continuing harm.
11. US District Court Decision: The District Court,
after eight [8] months dismissed the action on April
3. 2020 when it decided that CPIC was an “Arm-ofthe-State” and subject to immunity under the
Eleventh Amendment.
12. Notice of Appeal: BROWN timely filed a notice of
appeal with the District Court for an appeal with the
US Circuit Court of Appeals on April 28. 2020.
13. US Circuit Court Appeal: BROWN, still a non­
lawyer acting in Pro Se, filed a timely Appeal with
the Circuit Court. BROWN’s Appellant Brief was
4

filed on June 24. 2020. and his Appellant Reply Brief
was filed on September 14. 2020.
14. Florida Supreme Court Impairs Contract Rights
Again: Prior to the Circuit Court’s opinion, the
Florida Supreme Court further retroactively
impaired BROWN’s federal and state contract rights
on January 21. 2021 in the case of Citizens Prop. Ins.
Corn, v. Manor House when it decided that CPIC was
not subject to consequential damages.
15. US Circuit Court Decision: The three [3] Panel
Court affirmed the “Arm-of-the-State” decision of the
District Court on February 4. 2021.
16. US Circuit Court Rehearing Petition: BROWN
timely filed a Petition for Rehearing and a suggestion
for an En Banc Hearing of the full fifteen [15] Judge
Panel. The Courthouse door was closed for BROWN
when both were denied on April 29. 2021.
17. And Now A Petition for Writ of Certiorari: This
petition seeks review of an Eleventh Circuit decision
and a District Court opinion both granting “Arm-ofthe-State” status to CPIC under the Eleventh
Amendment, despite BROWN citing:
A. Eleventh Circuit Splits with the US
Supreme Court's THACKER and others.
B. Eleventh Circuit Splits within its own
Circuit.
C. Eleventh Circuit Splits with other Circuits.
D. Eleventh Circuit’s incorrect application of
their four prong test.
5

E. Secondary Issues of Unconstitutional
Florida Laws.
III. MAIN ISSUE
This case is before this Court because the courthouse
doors have been shut on BROWN by both the Federal
District Court and the Circuit Court. BROWN opines
that both the lower Courts erred by granting CPIC
immunity under the Eleventh Amendment.
The main issue now before this Court boils down to
whether a State’s “sue and be sued” corporation,
CPIC, qualifies as an “Arm-of-the-State” under the
Eleventh Amendment when conducting commercial
activities.
IV. SUMMARY Of ARGUMENTS
BROWN argues that:
A. Federal Law control when determining if any
State entity is deserving of a valid Arm-of-the-State
status under the Eleventh Amendment.
B. The US Supreme Court precedent in THACKER
controls this case.
C. If THACKER is not dispositive, CPIC still does
not qualify as an Arm-of-the-State under the
Eleventh Circuit’s four prong test.
D. CPIC's entire insurance activities with BROWN
were strictly commercial and BROWN had a right to
assert claims against CPIC in federal court.
6

E. There are Splits among the Circuits and within
the Eleventh Circuit on the issue of Arm-of-the-State
determinations.
F. Florida's Unconstitutional Laws That Unfairly
Benefit CPIC.
V. ARGUMENTS DISCUSSED
A. Federal Law controls when determining if anv
State entity is deserving of a valid Arm-of-the-State
status under the Eleventh Amendment. Federal
Courts must look only to Federal Laws and Decisions
to determine if any State entity is deserving of a
valid Arm-of-the-State status. “The issue of whether
an entity is an "arm of the State" for Eleventh
Amendment purposes is ultimately a question of
federal law.” Manders v Lee. 338 F.3d at 1328.
Federal Courts are not persuaded bv political
pressure like state courts. Local entities are
challenges for "Arm-of-the-State" analysis and
present distinct situations where a State's own
assessment of sovereign status should carry no
weight. State Legislators are notorious about
enacting laws that exempt themselves and allows
their offspring to break real laws with impunity. A
rule of absolute immunity is in danger of
becoming an instrument of injustice.
A valid Federal "Arm-of-the-State" test must ensure
that a state's immunity extends to an entity only
where that entity is so closely aligned with the
7

sovereign that a suit against the entity is in practical
effect a suit against the state itself.
CPIC filed a twenty-one [21] page shotgun motion to
dismiss. If CPIC thought it was entitled to the
Eleventh Amendment immunity then nineteen [19]
extra pages were not necessary. Obviously CPIC
needed the extra pages because it was unsure about
having immunity under the Eleventh Amendment.
The District Court took eight [8] months to decide
lack of subject matter jurisdiction. During those eight
[8] months the case proceeded through multiple
events and filings by both parties. Either the District
Court erred in allowing eight [8] months of activities
or CPIC waived jurisdiction by active participation in
the case.
CPIC alleged that BROWN beared the burden to
prove that jurisdiction existed. The District Court
erred and should have concluded that even assuming
that immunity is a question of subject matter
jurisdiction, that does not necessarily put the burden
on BROWN. Such placement would effectively
assume the truth of CPIC's assertion that it should
be immune from suit in the same way as the State
itself is. "Arm-of-the-State" cases requires courts to
decide first, whether CPIC can claim sovereign
immunity. The District Court erred on this issue.
CPIC beared the burden of showing it was an "Armof-the-State", but did not and the Circuit Court
ignored it.
8

“governmental entity invoking Eleventh
Amendment bears burden of demonstrating
that it qualifies as an arm of the state entitled
to share its immunity." Woods v. Rondout
Valiev Central School District Board of
Education. 466 F.3d 232, 237 (2d Cir. 2006)
"[T]he circuits that have considered similar
assertions of arm-of-state status have
uniformly concluded that it is an affirmative
defense to be raised and established by the
entity claiming to be an arm of the state."
United States ex rel. Oberg v. Pa. Higher
Educ. Assistance Agency. 745 F.3d 131, 147
(4th Cir. 2014). “Eleventh Amendment
immunity "should be treated as an affirmative
defense" and "must be proved by the party that
asserts it". ITSI TV Productions. Inc, v. Agric.
Ass'ns. 3 F.3d 1289, 1291 (9th Cir. 1993)
B. The US Supreme Court precedent in THACKER
controls this case. Both the District and the Circuit
Court completely ignored THACKER in their
analysis. THACKER was decided on April 29. 2019
and this case was filed with the District Court three
months later on August 7. 2019. THACKER should
have been dispositive in this case. The District Court
issued its opinion on April 3. 2020. The District
Court's analysis consisted of quoting older cases
[prior to THACKER] that cited Arm-of-the-State
status for CPIC, without any real analysis. Why
THACKER was not addressed by the District
Court in its opinion after almost a year is
troubling.
9

BROWN raised the commercial issue to the District
Court in his Amended Complaint:
by entering the
domain of commerce and entering into a commercial
contract, in this case, the Defendants [CPIC] waived
any right to claim sovereign immunity against suit.”
What is more troubling is that, the Circuit
Court did not even consider THACKER, despite
BROWN citing THACKER in all three briefs. And of
course the Appellee stayed away from mentioning
THACKER. THACKER is a precedent that is
dispositive in this case:
“When the TVA or similar body operates in
the marketplace as private companies do, it is
as liable as they are for choices and judgments.
The possibility of immunity arises only when
a suit challenses governmental activities — the
kinds of functions private parties typically do
not perform. And even then, an entity with a
sue-and-be-sued clause may receive immunity
only if it is "clearly shown" that prohibiting the
"type of suit [at issue] is necessary to avoid
grave interference" with a governmental
function's performance. Burr, 309 U. S., at
245. That is a high bar. ” Thacker v TVA. [EA]
Note the plain meaning of the words or similar
body, by that quote the Supreme Court was
reaffirming Burr and setting a precedent that their
analysis can be applied to any Arm-of-the-State
determinations and not just to TVA; otherwise those
words would not have been necessary. THACKER
10

directed that Courts must first decide if an entity’s
activity is commercial or governmental. Both District
Court and the Circuit Panel ignored and split with
THACKER.
“To determine if the TVA has immunity, the
court on remand must first decide whether
the conduct alleged to he negligent is
governmental or commercial in nature. If it
is commercial, the TVA cannot invoke
sovereien immunity. If it is governmental,
the court might decide that an implied
limitation on the clause bars the suit, but only
if it finds that prohibiting the "typef ] of suit [at
issue] is necessary to avoid grave interference"
with that function's performance. Burr, 309 U.
S., at 245. Pp. 10-11” Thacker v TVA. [EA]
The Circuit Court should have examined the
commercial activity of CPIC in the analysis of
whether CPIC acts as an “Arm-of-the-State”, just as
the U.S. Supreme Court set forth in their unanimous
decision in the THACKER case, which over-rules
previous Eleventh Circuit opinions. “TVA is subject to
suits challenging any of its commercial activities. The
law thus places the TVA in the same position as a
private corporation supplying electricity. But the
TVA might have immunity from suits contesting one
of its governmental activities, of a kind not typically
carried out by private parties,
a suit challenging
a commercial act will not "grave[ly] "or, indeed,
at all—interfere with the "governmental
functions" ’’Thacker v TVA. [EA]
11

THACKER specifically denies Eleventh Amendment
immunity to the State of Florida's "Arm-of-the-State"
entity CPIC when conducting commercial activities.
The THACKER Court interpreted BURR to hold that
a "sue and be sued" clause waives sovereign
immunity except in a situation in which immunity
from tort liability is required to avoid "grave
interference" with the performance of a
governmental function. CPIC conducted no
governmental function in this case!
Justice Kagan's unanimous opinion reversed the
Eleventh Circuit, which had sided with the long
standing Sixth Circuit precedent treating many TVA
functions as immune from suit. The Court stated
TVA is subject to suits challenging any of its
commercial activities. The law thus placed TVA in
the same position as a private corporation supplying
electricity. If TVA can be stripped of immunity
and sued when it acts like a business, then
CPIC should be treated likewise. THACKER
should be controlling and dispositive against CPIC.
Accordingly, actions by a so-called Arm-of-the-State
are divided into two functions:
1. Governmental
2. Commercial
CPIC has not provided any specific governmental
functions that it performs. CPIC does not possess any
powers and responsibilities reserved to sovereign
actors. There are few, if any, functions that CPIC
performs that are not also performed by the many
12

privately-owned companies that participate in the
property insurance market.
Allowing law suits against CPIC in Federal Court
does not create grave interference with CPIC's
performance of its governmental functions, if any.
Just as in THACKER, the question, would be where
to draw a line between protecting CPIC's liability as
an Arm-of-the-State, if it is such, when it is engaged
in quintessential government functions versus
holding CPIC accountable when it acts in a manner
similar to other commercial enterprises. CPIC's
activities surrounding commercial activities have no
real connection to anv governmental functions.
It is noteworthy that CPIC's brief made no mention
of THACKER, nor did the District Court or even the
Circuit Panel. TVA does engage in some
quintessential governmental activity such as
exercising eminent domain to expand property
holdings and appointing employees as law
enforcement agents. CPIC has no such eminent
domain nor law enforcement powers.
If TVA's activities are: "commercial—the kind of
thing any power company might do—the TVA can not
invoke sovereign immunity." CPIC’s activities are
commercial, the kind of thing any property insurance
company might do, thus CPIC should not be able to
invoke sovereign immunity. But even if the conduct is
governmental, it must be "clearly shown" that
immunizing TVA from suit is necessary to prevent a
"grave interference" with a governmental function.
13

This, the court cautioned, is a "high bar." This
decision should affirm the breadth of tort liability not
only for the TVA, but also for CPIC and any other
government corporations and agencies that are
engaged in commercial activities.
The effect of BROWN's case does not present a
substantial obstacle to CPIC's governmental
functions, if any, nor does it impose an undue burden
on the operation of CPIC's property insurance
business. Nor is it a genuine threat to the dignity of
Florida in allowing BROWN to pursue constitutional,
contract, and tort claims against CPIC in federal
court. CPIC should be subject to suits challenging
any of its commercial activities.
C. If Thacker is not dispositive. CPIC still does not
qualify as an Arm-of-the-State under the Eleventh
Circuit Court’s four prong test. Both the District
Court and the Circuit Court ignored these issues in
their analysis.
1. CPIC’s Characteristics: CPIC is not the State of
Florida; it is a corporate entity, financially separate
and distinct from the State of Florida itself. CPIC
operates in much the same way as an ordinary
business corporation, under the control of its officers,
and not under that of an agency.
CPIC sells and services property insurance contracts.
CPIC issues its own bonds. CPIC generates no
revenues for the State. CPIC's employees are not
paid with taxpayer money. Florida provides no funds
14

to satisfy judgments or settlements for CPIC. CPIC
does not have "inherent authority" to make law or
any rule-making authority. CPIC has no sovereign
powers of eminent domain, police power, or taxing
power. As a corporation CPIC operates commercially
only for a select few property owners who are citizens
of Florida and other states [Interstate Commercel.
and who are private owners. CPIC sells Contracts of
Insurance, contracts are not made by CPIC by virtue
of its powers of sovereignty, but in its capacity as a
commercial corporation. The supply of insurance
contracts is no more a duty of sovereignty than
electricity.
CPIC can sue and be sued in its own name. In 2006
CPIC sued the State of Florida in its own name.
Such actions proves that CPIC was not closely
connected to the State and suggests a lack of state
control, and thus not an Arm-of-the-State.
CPIC is not supported by the Full Faith and Credit of
the State of Florida. New Applications effective
January 1, 2012, with all CPIC's polices had this
disclaimer. “I also understand that Citizens Property
Insurance Corporation is not supported by the full
faith and credit of the state of Florida.”
2. Court Action: The District Court’s analysis
consisted of quoting older cases [prior to THACKER]
that cited Arm-of-the-State status for CPIC, without
any real analysis. The Circuit Panel applied their
four prong test but applied it wrongfully.
15

The District Court Opinion ignored CPIC’s Real
Creation and stated:
“Citizens was created by the Florida
Legislature to ensure that there is an orderly
market for property insurance for residents and
businesses of this state." 627.351(6)(a)l.. Fla.
Stat. The statute states that Citizens is "a
government entity that is an integral part of
the state, and that is not a private insurance
company." Id. Consistent with this statement,
courts resularlx recognize Citizens' status
as a state government entity.” [EA]
Just because a state statute or a court decides one
way or the other on immunity for a State's Arm-ofthe-State entity, it has no real legal bearing upon the
determination by a Federal court. A state's
determination of sovereign immunity does not
substitute for an independent analysis under federal
standards. An unlawful or unauthorized
exercise of power does not become legitimated
or authorized bv reason of habitude.
The Florida Legislature created CPIC, it did not
make it a new executive department, but it said it
can sue and be sued in its own name. They cast it
aside and said it can fend for itself. And to just say,
well, it performs some functions, it is governmental,
but when you start making that distinction this is
the exact error that the District Court made.
3. Florida Attorney General’s Legal Opinion: CPIC
never had “Arm-of-the-State” status. As proof the
16

Florida Attorney General is the State’s chief legal
officer fFlorida Constitution Article TV. Section 4\ and
he stated the real truth about CPIC’s creation:
“.... CS / SB 1418 renames the JUA as the
Citizens Property Insurance Corporation.
While the legislation removes language which
states that this entity is not a state agency
and restructures the association as a
corporation with its governing board appointed
by the Treasurer, much of the purpose and
function of the corporation is the same as
that of the JUA. Under the proposed
legislation, the corporation would not
perform a traditional governmental
function. Its revenues would not be subject to
legislative appropriation and would he held
solely for the purpose of satisfying
insurance claims. Though created by the
Legislature, in practical effect the
corporation would operate like a private
insurance company.” [Florida] Advisory
Legal Opinion- AGO 2002-21 TEA]
myfloridalegal.com/ago.nsf/Opinions/9ADA2C
D70F68DC5385256B740067BC9C
4. State Treasury: The State of Florida made it
perfectly clear in 2012 that CPIC was totally
independent by requiring CPIC to state so on all
CPIC insurance applications. New Applications
effective January 1. 2012. with all CPIC's polices had
this disclaimer. “I also understand that Citizens
Property Insurance Corporation is not supported bv
the full faith and credit of the state of Florida.”
17

[EA] That means that Florida is not responsible for
any of CPIC’s activities, financially or otherwise. The
fact that CPIC does not have the full faith and credit
backing of the state of Florida, that bonds, debts,
employees, and judgement against CPIC would not
be paid out of the state treasury are major clear
markers that CPIC is not an "Arm-of-the-State".
The very impetus for the Eleventh Amendment was
prevention of federal-court judgments that must be
paid out of a State's treasury. This case does not
affect the State of Florida’s treasury. The Eleventh
Amendment's core concern is not implicated in this
case. The State of Florida does not have a "legal
obligation" to pay, out of the state's treasury, any
funds for CPIC's general debts, contracts, obligations
or judgments. Suit against CPIC does not expose the
State treasury to any risk.
5. State Control: Florida has no veto power over
CPIC's 1250 employees who conduct the day to day
commercial insurance activities. In 2006 CPIC sued
the State of Florida in its own name. CPIC acted of
its own volition, for its own benefit, and not as an
Arm-of-the-State. Such actions proves that CPIC was
not closely connected to the State and suggests a lack
of state control, and thus not an Arm-of-the-State.
Likewise, the statement in New Applications
effective January 1. 2012. with all CPIC's polices had
this disclaimer. “J also understand that Citizens
Property Insurance Corporation is not supyorted bv
the full faith and credit of the state of Florida”
18

[EA] That means that Florida does not control any of
CPIC’s activities, financially or otherwise.
6. CPIC’s Sue and Be Sued Clause: Both the District
Court and the Circuit Court ignored these issues in
their analysis. Florida decided that CPIC could “sueand-be-sued in its corporate name.” Fla. Stat. §
627.351(2)(bX6)(b) says, “Any entity created under
this subsection, or any entity formed for the purposes
of this subsection, may sue and be sued ...”
Courts have held that "sue and be sued" statutes
waive sovereign immunity. [See also THACKER].
Since its inception CPIC has represented itself in
litigation by attorneys of its own choosing and no
Court at any level has ever questioned CPIC's right
to do so. In 2006 CPIC sued the State of Florida
in its own name. The Courts have repeatedly
recognized CPIC's responsibility for its own
litigation.
This case meshes with this US Supreme Court’s
holdings on public corporations chartered with “sueand-be-sued” clauses. The State of Florida by
launching a state entity into the commercial world,
and including a sue-and-be-sued clause in its charter,
Florida effectively cast off the entity’s "cloak of
sovereignty" and gave it the status of a private
commercial enterprise.
"sue and be sued clauses waive sovereign
immunity and should be liberally construed."
FDIC v. Mever. 114 S. Ct. 996, 1003 (1994)
[EA]. "federal agencies launched into
19

commercial world with power to "sue and be
sued" are not entitled to sovereign
immunity." Loeffler v. Frank. 486 U.S. 549,
554-55 (1988). [EA] As the Supreme Court
explained in Loeffler, by "launching ‘[a federal
instrumentality] into the commercial world,'
and including a sue-and-be-sued clause in its
charter, Congress ecast[s] off [the
instrumentality's] cloak of sovereignty and
gives it the status of a private commercial
enterprise. 486 U.S. at 556 (quoting Library of
Congress v. Shaw. 478 U.S. 310, 317 n.5
(1986)). See also THACKER.
7. State Dignity: Some Courts have embarked on a
path of sacrificing legal rights of individuals in favor
of what it calls "dignity" of states. There is nothing
dignified in claims of immunity that seek to avoid
accountability for unlawful discrimination and
violations of constitutional rights. As peoples'
representatives, Courts have a responsibility to
protect individuals' rights and keep the government
accountable. There is ample dignity in
adherence to the rule of law. CPIC is not the
State of Florida nor does CPIC’s actions exhibit
dignity.
8. Political Subdivisions: Not all entities created by
states are eligible to share state sovereignty. CPIC is
defined as a political subdivision."(it) For the purposes
of s. 199.183(1), the corporation shall be
considered a political subdivision of the state and
20

shall be exempt from the corporate income tax."
627.351.(6)(Sl)(t). [EA]
The Supreme Court has long held that under the
Eleventh Amendment, the states and their political
subdivisions are separate entities. While suits
against a state may not be brought in Federal court
without the state's consent, no consent is necessary
for suits against counties, municipalities, and other
such "independent" political subdivisions.
"Political subdivisions of States-counties,
cities, or whatever - never were and never
have been considered as sovereign entities........"
Waller v. Florida. 397 U.S. 387 (1970) "(local
school district not an arm of the state based on
(1) its designation in state law as a political
subdivision,....Mt. Healthy City Bd. of Educ.
v. Dovle. 429 U.S. 274, 280 (1977) "[T)he Court
has consistently refused to construe the
[Eleventh) Amendment to afford protection to
political subdivisions
". Lake Country
Estates. Inc, v. Tahoe Regional Planning
Agency. 440 U.S. 391,401 (1979)"... towns,
counties and other political subdivisions of
the state cannot invoke sovereign
immunity in federal...". Northern Insurance
Co. v. Chatham County. 547 U.S. 189, 193
(2006) [EA]
9. More Analysis: For a complete analysis on how the
Circuit Panel erred in applying their four prong test
to CPIC see [Pet. App. Pgs 33-40].
21

D. CPIC’s entire insurance activities with BROWN
were strictly commercial. BROWN sought property
insurance by way of an application and payment of
monies for years. CPIC accepted both BROWN’s
applications and monies and issued BROWN
insurance contracts. BROWN filed a claim provided
by the property insurance contract. CPIC inspected
the property claim. CPIC denied the claim. BROWN
obtained counsel and sued CPIC. CPIC settled with a
contract and proved the validity of the claim. CPIC
never properly paid BROWN. BROWN begged CPIC
to pay up for years. CPIC refused to pay. BROWN
sued CPIC in Federal District Court.
How was any of those ongoing activities considered a
governmental function? The obvious answer is none.
They were all commercial activities. CPIC acts like
any other company selling and servicing property
insurance. Immunity under the Eleventh
Amendment should not apply to CPIC’s commercial
insurance activities.
E. There are Splits among the Circuits and within
the Eleventh Circuit on the issue of Arm-of-the-State
determinations. The Circuit Court ignored these
issues in their analysis. For BROWN’s analysis about
splits on the issue of Arm-of-the-State
determinations see [Pet. App Pgs 23-24,33-35].
F. Florida's Unconstitutional Laws That Unfairly
Benefit CPIC. If the Court Pleases, for judicial
economy please consider these obstacles that Brown
22

faces on his journey to justice with a jury. These
Federal issues were raised in District Court.
BROWN seeks a Jury trial and has identified
unconstitutional laws and practices in Florida that
will create impediments for all such litigants in
seeking justice. Florida is openly violating the 14th
Amendment’s unequal protection of the laws
provision. An act passed by a state legislature or a
decision by the courts that directs a discriminatory
result is state action and would violate the first
section of the 14th Amendment.
CPIC has a nefarious philosophy, mind-set, and even
formal procedure regarding the settlement of claims
that is fueled by moral hazard. CPIC will seldom
put forth a reasonable offer to settle any claim. That
is their plan, delay and never pay. Everything that
happens in an insurance company is the result of a
calculated move. If CPIC paid claims quickly and
fairly, Petitioner would not be here. CPIC knows that
most individuals, unrepresented by counsel, will
succumb to the “take it or leave it” approach. CPIC
had rather pay attorney fees than to fairly settle a
claim. CPIC unfairly benefits from Florida’s
unconstitutional laws, most of which benefit only
CPIC to further its nefarious philosophy.
All of the below issues are violations of BROWN's
constitutional rights. These secondary issues
need to be remedied.

23

1. Contract Rights: There is a vast record of
thousands and thousands of plaintiffs being unfairly
denied a remedy for a wrong committed by CPIC as
regards due process and the impairment of their
contract rights. States cannot deny due process nor
impair the obligation of contracts. The 14th
Amendment to the U.S. Constitution, which over­
rules the Eleventh Amendment, has changed
constitutional federalism in many ways, and provides
that a State cannot deprive a person of due process of
law nor deny equal protection under the laws. In
Florida, there is widespread and consistent problems
affecting due process, impairment of contracts, and
equal protection. Petitioner is claiming CPIC, the
State Legislature of Florida, and the Florida
Supreme Court, by and through its unconstitutional
laws, have impaired contracts, plus denied
Petitioner, and thousands and thousands of other
plaintiffs, the right of due process and equal
protection, because unconstitutional laws allow
injuries to occur without remedies. The idea that the
state can violate the law and nowhere be held
accountable is inconsistent with the most basic
notions of justice and with the view that federal
courts exists to enforce the Constitution and laws of
the US.
“contract rights are property that may not be
taken by the government without just
compensation under the Fifth Amendment”
“Contracts between individuals or corporations
are impaired within the meaning of the
Constitution (article 1, 10, cl. 1) whenever the
right to enforce them by legal process is taken
24

away or materially lessened,” Lynch v. United
States 292 US 571, 579. [EA]
Wisely feeling that the state governments could
not be trusted to respect economic rights, the
Constitution’s Framers sought in Article 1. Section
10 to restrict state authority in several respects.
Foremost among these limitations on state power
was the Contract Clause. As Justice Hugo L. Black
pointed out, the Contract Clause was "one of the few
provisions [explicitly limiting states' powers] which
the Framers deemed of sufficient importance to place
in the original Constitution."
Two of BROWN's contract rights of seeking damages
for "bad faith" and "consequential damages" have
been wrongfully and retroactively impaired by the
Florida's Supreme Court which unfairly benefits
CPIC at BROWN’s disadvantage, as well as
thousands of other litigants.
BROWN had two commercial contracts with CPIC;
an insurance contract in January of 2011 and a
settlement contract in August of 2014. Both of
BROWN's commercial contracts were in effect prior
to the Florida Supreme Court's rulings in CPIC v
Perdido Sun (May 14, 2015) and Citizens Prop. Ins.
Corp. v. Manor House (January 21, 2021). Both of
these cases impairs contracts, violates the U.S.
Constitution's Article I. Section 10. the Florida
Constitution Article L Section 10. and even violates
the Florida Constitution Article I. Section 21 by
unfairly denying redress of any injury.
25

away or materially lessened.” Lynch v. United
States 292 US 571, 579. [EA]
Wisely feeling that the state governments could
not be trusted to respect economic rights, the
Constitution’s Framers sought in Article 1. Section
10 to restrict state authority in several respects.
Foremost among these limitations on state power
was the Contract Clause. As Justice Hugo L. Black
pointed out, the Contract Clause was "one of the few
provisions [explicitly limiting states' powers] which
the Framers deemed of sufficient importance to place
in the original Constitution."
Two of BROWN's contract rights of seeking damages
for "bad faith" and "consequential damages" have
been wrongfully and retroactively impaired by the
Florida's Supreme Court which unfairly benefits
CPIC at BROWN’s disadvantage, as well as
thousands of other litigants.
BROWN had two commercial contracts with CPIC;
an insurance contract in January of 2011 and a
settlement contract in August of 2014. Both of
BROWN's commercial contracts were in effect prior
to the Florida Supreme Court's rulings in CPIC v
Perdido Sun (May 14, 2015) and Citizens Prop. Ins.
Corp. v. Manor House (January 21, 2021). Both of
these cases impairs contracts, violates the U.S.
Constitution's Article I. Section 10. the Florida
Constitution Article I. Section 10. and even violates
the Florida Constitution Article I. Section 21 by
unfairly denying redress of any injury.
25

BROWN raised contract impairment issues with the
District Court on several occasions and with the
Circuit Court in his Appellant Brief and again in his
Reply Brief. This "bedrock constitutional right" is
being destroyed by the laws in Florida.
(a) Contract Right of Bad Faith Damages Impaired:
The Florida Supreme Court on May 14, 2015 in the
case CPIC v Perdido Sun granted CPIC
unconstitutionally the right to use "bad faith" at
will and without accountability or legal
consequences. This ruling impaired all of CPIC's
contracts by eliminating the cause of action for bad
faith against CPIC. Due process was denied and
eliminated the right to petition the government for a
redress of grievances of wrongdoings of bad faith by
CPIC and its employees. It certainly does not follow
the law's concern for holding bad actors accountable
for their actions. If you can not sue for bad faith
violations, then how do you get the bad faith to stop?
CPIC v Perdido Sun granted CPIC immunity and the
right to aggressively commit bad faith acts with
malice and without any accountability. Said ruling
just encouraged CPIC to delay and never pay.
Everything that happens in an insurance company is
the result of a calculated move. See also [Pet. App.
Pgs 77-80]
(b) Contract Right of Consequential Damages
Impaired: On January 21, 2021, in the case of
Citizens Prop. Ins. Corn, v. Manor House, the Florida
Supreme Court barred consequential damages by
26

holding that extra-contractual damages are only
available in a separate bad faith action. But they are
not recoverable against CPIC because CPIC is
statutorily immune from first-party bad faith claims.
[See § 627.351(6)(s)l.. Fla. Stat. (2019)]. The ruling
now invites CPIC to delay and deny claims
with impunity. It certainly does not follow the law's
concern for holding bad actors breaching contracts
accountable for the foreseeable results of their
actions. CPIC v Manor House granted CPIC the right
to aggressively commit breach of contract with
malice, forethought, and without any accountability
for causing consequential damages. The Florida
Supreme Court's decisions handed CPIC a license to
steal from thousands and thousands of their
policyholders without any legal responsibility or legal
accountability. Said ruling just encouraged CPIC to
be bold and be more aggressive in delaying and never
paying. Everything that happens in an insurance
company is the result of a calculated move and CPIC
now had immunity from all nefarious calculated
actions.
2. Jury Trial Punitive Damages Canned: This issued
was raised in District Court by BROWN and in the
Circuit Court by CPIC and addressed in Circuit
Court by BROWN. The Florida Legislature by
creating caps to punitive damages [Fla. Stat.
§768.731 and punitive damage mini-trials [ Fla. Stat.
§768.720)1 before presentation to the jury both
violates Florida's Constitution Article I. Section 22
[The right of trial by jury shall be secure to all and
remain inviolate], as well as the U.S. Constitution's
27

7th Amendment [the right of trial by jury shall be
preserved, and no fact tried by a jury, shall be
otherwise re-examined]. See also Henderson bv &
Through Hartsfield v Alabama Power Co. (1993, Ala)
627 So 2d 878 [Limitation ofpunitive damages ...
violates state constitution's guarantee of trial by jury.
... It is improper for legislature to substitute itself for
jury and to fix arbitrary limit.] See also BROWN’s
Reply Brief Section X Punitive Damages. [Pet. App.
Pgs 81-83] This "bedrock constitutional right" is
being destroyed by the laws and Courts in
Florida, and unfairly reduces penalties for
CPIC when found guilty.
3. Pro Se Fee Prohibition: This issued was raised in
District Court. Pro Se Fees are not awarded in
Florida courts. CPIC gains by not having to pay legal
fees when it loses. The refusal to grant Pro Se Fees to
a litigant who can not obtain legal counsel is a
violation of the U.S. Constitution. Article I. Section
9.[iVo title of nobility shall be granted], the U.S.
Constitution. Article I. Section 10. [No state shall
...grant any title of nobility], the U.S. Constitution
Amendment V. [nor shall private property be taken
for public use, without just compensation], the U.S.
Constitution Amendment XIII Section 1. [nor
involuntary servitude ....shall exist within the United
States, or any place subject to their jurisdiction], and
the U.S. Constitution Amendment XIV. Section 1.
[nor shall any state deprive any person of life, liberty,
or property, without due process of law; nor deny to
any person within its jurisdiction the equal protection
of the laws].
28

Attorney fees are awarded in some situations. The
denial of Pro Se Fees in lieu of attorney fees is a
sanction or penalty when an individual, without
counsel, is forced to protect his constitutional rights.
The Courts, both Federal and State, are converting a
liberty of exercising an individual's constitutional
rights to seek relief from violations of the U.S.
Constitution and other causes, by converting a right
to legal fees into a license where only a select group
of preferred individuals can obtain that right. Thus
the denial of legal fees to a Pro Se Litigant denies
equal protection under the laws to certain lower
income individuals. Pro Se Litigants' time is just as
valuable as an attorney's, and more so in that the
knowledge once acquired to bring a suit has a limited
life span, since the Litigant can not use that
knowledge in any other meaningful economic
endeavor. Time is irreplaceable and time expended to
seek justice is lost if wrongful defendants are
rewarded with less damages just because the
plaintiff can not afford the price of an attorney.
Consider a senior citizen, the time is more valuable
as there is less of it. Equal protection applies to
awards in Jury trials, and legal fees whether by an
attorney or a Pro Se Litigant, are a cost that is either
paid in money or in expending personal energy and
effort.
Awarding legal fees to a plaintiff in one case with an
attorney and not awarding legal fees in an identical
case with a Pro Se plaintiff is not equal damages for
the same offense. Besides, defendants have usually
29

withheld money from plaintiffs in an effort to deny
plaintiffs with the ability to obtain counsel. To
reward defendants with less costs, despite that their
very actions are what denies plaintiffs an attorney, is
not equal protection under the laws. Denying Pro Se
fees unjustly enriches guilty defendants.
And finally the benefit to the public deriving from a
plaintiffs claim to seek Pro Se fees would encourage
other low income individuals to seek their own
justice, which is currently being denied. When the
court must force compliance, then Pro Se fees should
be levied against wrongful acts. It has been argued
that Litigants who incur no legal expenses do not
assume that burden and, therefore, attorney fees
awards to Pro Se litigants are inappropriate. Such
views totally ignore the reality. If a Pro Se litigant is
providing the work of a lawyer, then the Courts
should consider that work just as valuable as an
attorney. Furthermore, requiring plaintiffs to retain
attorneys as a condition for recovering attorney fees
contradicts the court's express purpose to facilitate
public access to the courts.
VI. QUESTIONS ANSWERED
A. Do the decisions in Thacker v TVA apply to a
similar "sue and be sued" body in determining
Eleventh Amendment immunity for a State's "Armof-the-State" corporate entity when conducting
commercial activities? YES.
Both the District Court and the Circuit Court never
addressed the governmental versus commercial
30

activity issue in their analysis nor mention
THACKER. For BROWN's analysis on how
THACKER applies to State’s “Arm-of-the-State
entities under the Eleventh Amendment see [Pet.
App. Pgs 37-39].
How can CPIC's commercial activities of selling
insurance, paying commissions, issuing policies,
canceling policies, collecting premiums, paying
expenses, denying claims, adjusting claims, settling
claims, issuing bonds, borrowing money, entering
into commercial contracts, suing and being sued,
breaching contracts, settling contract breaches,
committing willful torts, settling willful torts, taking
and holding property in its own name, hiring
contractors, hiring outside attorneys, hiring
employees and suing the State of Florida be
considered governmental functions? They are not!
CPIC is not an Arm-of-the-State in these commercial
functions. Whether CPIC performs a "real" state
function is in dispute and takes a lot of stretching
around corners to determine that CPIC is an "Armof-the-State", given all the reasons it is not.
B. Does the commercial versus governmental activity
test in Thacker v TVA over ride or modify the
Eleventh Circuit's four [4] prong test in determining
Eleventh Amendment immunity for a State's "Armof-the-State" corporate entity? YES.
The District Court and the Circuit Court ignored the
separating of governmental versus commercial
31

functions set down in the THACKER precedent. The
new standard is to determine first if the action being
considered is commercial or governmental. If it is
commercial then immunity does not apply. If it is
governmental then the four prong test is then
applied.
C. Did the Eleventh Circuit err by applying their four
prong test in the abstract and too narrowly? YES.
For BROWN’s analysis on how the Circuit Court
Panel erred in applying their own four prong test see
[Pet. App. Pgs 40-48].
D. Do Florida laws impairs contracts? YES.
Florida’s laws violate the Contract Clause in the US
Constitution Article 1. Section 10. the Florida
Constitution Article I, Section 10. and even the
Florida Constitution Article I. Section 21.
E. Is Florida’s limit on punitive damages
unconstitutional? YES
Florida’s punitive caps violates the Florida's
Constitution Article I. Section 22. as well as the U.S.
Constitution's 7th Amendment.
F. Are lack of pro se fee awards unconstitutional?
YES
Florida’s prohibition of pro se fee awards violates the
U.S. Constitution. Article I. Section 9. the U.S.
32

Constitution. Article I. Section 10. and the U.S.
Constitution Amendment XIII Section 1.
VII. SUMMARY
A. Main Issue In This Case
The main issue before this Court boils down to
whether a State’s “sue and be sued” corporation,
CPIC, qualifies as an “Arm-of-the-State” under the
Eleventh Amendment when conducting commercial
activities.
B. Party of Record
CPIC is a corporation which is a different "person"
from those who are its stockholders. The State of
Florida itself is not a party to this suit, nor so far has
it sought to express views in this litigation as a party
or amicus. CPIC is the party of record and a
corporate entity having been designated with a “sue
and be sued” provision under which BROWN sued.
CPIC is attempting to wrongfully cloak itself in the
State's Eleventh Amendment immunity.
BROWN did not sue the State of Florida, he sued
CPIC over commercial contract related activities.
CPIC engages in commercial activity. If it is
commercial, then CPIC can not invoke sovereign
immunity. Nothing suggests that a state entity,
particularly a state corporation, must be free from
any form of legal accountability for commercial
decisions.
C. CPIC Has No Arm-of-the-State Status Under
Lower Court’s Analysis
33

Both the District and the Circuit Court applied the
wrong legal test, and thus reached the wrong result.
The District Court used no test and just cited older
cases. The Circuit Court used their four prong test in
the abstract and not its function or role in a
particular context, which split with another of their
own decisions. "The pertinent inquiry is not into the
nature of [an entity's] status in the abstract, but its
function or role in a particular context." Shands
Teaching Hosp. & Clinics v. Beech St. Corp.. 208
F.3d 1308,1311 (11* Cir. 2000).
Even without THACKER, BROWN demonstrated
that under the Circuit’s four prong test, CPIC still
should have been denied “Arm-of-the-State” status.
CPIC's activity of hiring employees, paying
employees with non-taxpayer money, borrowing
money, issuing bonds, handling policyholder claims,
denying claims, suing and being sued in its own
name, seeking insurance premiums, entering into
Commercial Contracts and generating no revenue for
the State does not establish an effect upon the state
treasury and does not reflect an activity by an "Armof-the-State". In light of BROWN’s analysis of the
four prong test, BROWN asks this Court to confirm
that CPIC's “Arm-of-the-State” status under the
Eleventh Amendment is denied.
D. CPIC Has No Arm-of-the-State Status Under
THACKER
In the U.S. legal system, stare decisis represents the
"doctrine of precedent, under which a court must
follow earlier decisions when the same points arise
34

again in litigation." Both the District and the Circuit
Court totally ignored THACKER, and cases therein
that were reaffirmed. THACKER basically
established that commercial activities are not
immune from suit in federal court. Suits based on a
public corporation's commercial activity may proceed
as they would against a private company; only suits
challenging the entity's governmental activity may
run into an implied limit on its sue-and-be-sued
clause. The problem is not who is doing the State’s
business, but what business the State’s Arm-of-theState is doing. It is not the identity of the actor but
the nature of the action that creates the challenge. If
this analysis is correct, then the appropriate fix rests
on proper classification not of the actor, but of the
conduct, a process that the Supreme Court has
undertaken in THACKER. So why did both the
District Court and the Circuit Court ignore
THACKER?
In light of THACKER, BROWN asks this Court to
confirm and thus clarify the immunity rules under
the Eleventh Amendment that govern commercial
activities of entities with “Arm-of-the-State” status
and sue and be sued clauses.
E. Courthouse Doors Need To Be Opened
The Circuit Court closed the courthouse doors to
BROWN by this final statement: “We have sympathy
for Brown’s apparent predicament. But because CPIC
is an arm of the state, Eleventh Amendment
immunity bars him from bringing his claims in
federal court. We therefore AFFIRM the district
35

court’s judgment.” Eleventh Circuit Court of Appeals
Decision February, 4, 2021 [Pet. App. Pg 9]. Please
open the courthouse doors before I die.
BROWN requests this Court to open the courthouse
doors by holding that, contrary to the lower courts'
decisions, the District Court did have subject-matter
jurisdiction to hear claims against CPIC because the
Eleventh Amendment does not apply to CPIC when
conducting commercial activities.
The anguish and pressure of solely going up against
a powerful entity with scores of in-house legal
talents, as well as outside legal experts, is extremely
frightening, and emotionally stressful.
“There is, no doubt, some truth to Learned Hand's
comment that a lawsuit should be 'dreadfed]. . .
beyond almost anything else short of sickness and
death.” Association of the Bar of the City of New
York, Lectures on Legal Topics 105 (1926). Clinton v.
Jones. 117 S. Ct. 1636, 1650 n.40 (1997).
F. Ideal Case For a Supreme Court Decision
Unfortunately, the current state of Eleventh
Amendment jurisprudence among the circuit courts
provides little certainty. States and Litigants should
have some degree of certainty that THACKER
applies to both Federal and State Arm-of-the-State
entities when conducting commercial activities.
States are persuaded bv political pressure. Federal
Courts are not. State entities are therefore
challenges for "Arm-of-the-State" analysis and
36

present distinct situations where a State's own
assessment of sovereign status should carry no
weight. Even more troubling is the wide divergence
of tests utilized bv the circuits that wrongfully make
some States more sovereign than others. Perhaps
more importantly, the circuits differ over the
relevant weight to be accorded the various factors. A
rule of absolute immunity is in danger of
becoming a State’s instrument of injustice
unless this Court rules otherwise.
This case presents an ideal vehicle to provide
guidance and uniformity with respect to a
confusing yet new fundamental aspect of Armof-the-State sovereign immunity.
VIII. CONCLUSION
If the Court pleases: BROWN requests this Court to
consider and correct all the wrongs cited herein
including the main issue, secondary issues, and any
others that this Court recognizes.
In light of this Court’s THACKER precedent,
BROWN asks this Court to confirm that CPIC’s
commercial activities are not subject to Eleventh
Amendment immunity and thus clarify the immunity
rules under the Eleventh Amendment that govern
commercial activities of State entities with "Arm-ofthe-State" status and sue and be sued clauses.
In the alternative, assuming that THACKER does
not apply to State’s commercial entities with "Armof-the-State" status and sue and be sued clauses, and
37

in light of BROWN's analysis of the Eleventh
Circuit’s four prong test, BROWN asks this Court to
confirm that CPIC's "Arm-of-the-State" status under
the Eleventh Amendment is denied.
BROWN requests this court to again open the
courthouse doors by holding that, contrary to the
lower courts' decisions, the District Court did have
subject-matter jurisdiction to hear claims against
CPIC because the Eleventh Amendment does not
apply to CPIC.
BROWN requests this Court to grant any and all
other relief to which the Petitioner may be or appear
to be entitled.
The lower courts’ analyses are mistaken and should
be vacated.
The Court should grant this petition for a writ of
certiorari.
Re

I swear under penalty of perjury that the statements
made here in this Petition are true to the best of my
knowledge and recollection.
Sign: /s/ Roger Brown, Petitioner

38

